George Grob /S/
Deputy Inspector General
  for Evaluation and Inspections

Three Year and One Year Performance Data for the Senior Medicare Patrol Projects

(OEI-02-97-00527)


Edwin Walker, Director

Office of Program Operations and Development

Administration on Aging



At the request of the Administration on Aging (AoA), we have continued to collect

performance data from the 12 original Senior Medicare Patrol Projects and the 29 new Senior

Medicare Patrol Projects. Attachment A presents performance data for the entire three years

of the original projects. Attachment B presents performance data for the first year of the new

projects. Please note these data are self-reported and we have not verified their accuracy.


Having just finished their three year grant period, the original 12 Senior Medicare Patrol

Projects have accomplished much in training and educating beneficiaries about fraud, waste,

and abuse. They trained close to 12,000 trainers who later went on to educate about 198,000

beneficiaries. They also reached an estimated 42 million through community education events

and the media. These beneficiaries are trained to scrutinize their Medicare bills and summary

notices and to report potential errors to their medical care providers, Medicare insurance

contractors, or the Office of Inspector General (OIG) fraud hotline. 


In addition, these projects received 7,600 complaints through one-on-one counseling with

beneficiaries and through their own local hotlines. Of the complaints that were investigated,

the projects helped identify a total of $1.5 million in Medicare funds for recoupment. 

However, projects were able to provide documentation of actual recoupment for only

$261,000. It is important to note that the projects continue to have difficulty tracking such

recoupments.


As for the 29 new Senior Medicare Patrol Projects, they have made significant progress in the

past six months. The total number of trainers they have trained has more than doubled in the

past 6 months, from 934 to 2,463. The total number of beneficiaries educated by these trainers

has tripled, from 22,267 to 65,139. The complaints the projects have received and the money

identified for recoupment have also shown large increases. Currently, the projects have

received 1,334 complaints and have identified $85,000 in Medicare funds for recoupment. 

However, projects have not been able to provide documentation of any actual recoupments.

Page 2 - Edwin Walker, Director

As a whole, the Senior Medicare Patrol Projects have trained 14,408 trainers and educated
262,913 Medicare beneficiaries through sessions. It should be noted that the most substantial
savings which are expected to arise from projects under both of the above programs will be
derived from a sentinel effect whereby fraud and error are reduced in light of Medicare
beneficiaries' scrutiny of their bills. Savings will also result from reports of fraud and error
made to the Medicare contractors and to the OIG fraud hotline. It is not feasible, however, to
track these effects entirely.

We will continue to monitor the projects and provide you with 40-month and 18-month
performance data. If you have any questions, please call me at (202) 619-0480 or have your
staff call Jack Molnar at (212) 264-1998.

Attachments
                                                                                                                                                                          APPENDIX A

                      Three Year Outcomes Reported by the Senior Medicare Patrol Projects


              Activity                  TOTAL        CA         HI           IA          IL         MD          MN           MO         NH         NY          PA          RI         WI

            OUTPUTS
# training sessions                          726          55          16          22          19         57          52           12          7         389         41           9         47

# trainers trained                        11,945          734        129          859         235        855         332          49         303     7,620          76          228        525

# media events                             2,325          147         67          366         74         137         293          49         735        167         41          113        136

# community education events               2,255           0          42          85          110        513         301          100        113        594         264         30         103

            OUTCOMES

total # trainers who have ever             3,245          236         45          DK          235        16          92           49         20      2,362          50          23         117
conducted activities

# group sessions                           4,439          802        126          439      1,070         35          348          84         318        466         343         193        215

# beneficiaries at group sessions        183,529       41,108     5,512       16,174      39,668      5,200        7,543       3,501      5,724     19,894      28,590       4,101      6,514

# one-on-one sessions                     14,245          564          0          112         422     2,799          350       1,130      6,006      2,384          375         DK         103

total # beneficiaries educated           197,774       41,672        5512     16,286      40,090      7,999        7,893       4,631     11,730     22,278      28,965       4,101      6,617

estimated # people reached by media 33,356,284      4,876,510   271,183     1,000,000 10,424,000    195,000     195,648      140,000    950,000    663,108    2,030,000   7,548,300 5,062,535
events

estimated # people reached by           8,496,421          0      2,578       11,646       6,675     33,725       13,411     140,000     15,003    239,436    8,005,000     13,593     15,354
community education events

# complaints received                      7,611          564         19          725         195        625         185          17      4,688         183         310         28         72

# complaints referred for follow-up        1,033          146          3          298         73         137         106          15         41         56          88          27         43

# complaints resulting in some action        266          27           0          22          DK         98          26           DK         14         37          24          DK         18

Medicare $ recouped                     1,522,725     113,722          0 1,145,767 *          DK         DK    109,997   *        DK          0      3,008     144,164          DK    6,067 *

Other $ recouped                         626,923       34,000          0      58,691     146,485         DK       15,805     177,724    180,075          0          DK          DK     14,143

Total $ recouped                        2,149,648     147,722          0    1,204,458    146,485         DK     125,802      177,724    180,075      3,008     144,164          DK     20,210
Please note the following:

--New York is also a HIPAA-funded Project grantee.

* Pending documentation of actual recoupments
                     One Year Outcome Reported by New Senior Medicare Patrol Projects
                                                                                              APPENDIX B

               Activity                   TOTAL        AK         AL          AR        AZ        CO        CT        DC1        DC2         DE        FL         GA3        GA4         ID         IN

             OUTPUTS
# training sessions                             288         38         7            1        6         14        1           7         0          4          3          4          8           9         0

# trainers trained                            2,463         42       101           12        8       131         6          29         0          36        31          40     102            23         0

# media events                                1,264         28         11           2        3         11        14          7         0       791          23          0          2           2         0

# community education events                  1,020         33         24          46        42        18        0          13         14         26        38          1          29         28         0

            OUTCOMES

total # trainers who have ever                  504         35         18           2        8         16        6           7         0          16         7          40         33         13         0
conducted activities

# group sessions                              1,225         5          12           5        21      152         32         18         0          33         4          32         87         37         0

# beneficiaries at group sessions            54,111       141        625        185      5,981      5,618     2,500     639            0       769          51     1,371      2,971           647        0

# one-on-one sessions                        11,028       996          89          DK        4         52        0           8         0          2         77          0          2          31         0

total # beneficiaries educated               65,139      1,137       714        185      5,985      5,670     2,500     647            0       771          128    1,371      2,973           678        0

estimated # people reached by media       11,776,346    80,000    100,450     40,000    22,000    420,098   161,500   55,000           0    106,988 1,262,589           0    20,000           450        0
events

estimated # people reached by                90,646      1,500      1,920      2,950     8,655      2,220        0     2,275        412       3,552     7,398           60    3,002       1,122          0
community education events

# complaints received                         1,334       321          22           1     281          21        10         30         0          36        14          0          0          114        0

# complaints referred for follow-up             448         2          17           1        15         5        10          7         0          2          7          0          0          76         0

# complaints resulting in some action           195         0          2            0      DK          DK        0           0         0          0          1          0          0          28         0

Medicare $ recouped                          85,225         0          0            0      DK          DK        0           0         0          0          0          0          0    10,970 *         0

Other $ recouped                             25,170      9,887         0            0      DK          DK        0           0         0          0          0          0          0           0         0

Total $ recouped                            110,395      9,887         0            0      DK          DK        0           0         0          0          0          0          0     10,970          0
Please note the following:
— The new Senior Medicare Patrol Projects in AZ, OR, and VA are also HIPAA-funded Project grantees.

Please note these distinctions:
1. The AARP Foundation, DC              2. Friendship House, DC             3. Atlanta Regional Commission, GA              4. Department of Human Resources, GA

* Pending documentation of actual recoupments
                                 One Year Outcome Reported by New Senior Medicare Patrol Projects
                                                                                    APPENDIX B


               Activity                    MA        ME        MI        MT        NM           NV           OH         OK         OR         PR        TX5         TX6         UT        VA         WA

             OUTPUTS
# training sessions                             18        10        17        2            2         23            2         1          11          6         6           12         5         11         60

# trainers trained                            108         59     231          15        50           30           63         12         61         50      102            36         39      208        838

# media events                                101         19        3         11        19           20           37         2          26         12         4           20         3         76         17

# community education events                    43        48        2         34        31           15           43         25         10       300          12          57         8         78         2

            OUTCOMES

total # trainers who have ever                  24        11        18        0            9            8         41         3          27          3         20          22         5         73         39
conducted activities

# group sessions                                73        8         43        0            7         13           84         1          28          0         7           50         15      195        263

# beneficiaries at group sessions           2,194     481       2,873         0       210            450       3,062     1,168          538         0      510        1,163      350        5,540    14,074

# one-on-one sessions                       1,283         8         0         0         23           12           196        0          21          5         0           137        42         0     8,040

total # beneficiaries educated              3,477     489       2,873         0       233            462       3,258     1,168          559         5      510        1,300      392        5,540    22,114

estimated # people reached by media       137,000 546,700       1,100    22,760    168,000     3,110,332    1,004,987   20,100    1,406,250   650,000   500,000    1,025,000    1,700     901,932    11,410
events

estimated # people reached by                 370    3,511       150       849       9,312        1,370        4,990     2,077       5,294      4,000     1,500       2,336     2,400      17,271       150
community education events

# complaints received                            5        11     105          0         24           38            6         0           1       150          0           35         0         90         19

# complaints referred for follow-up              1        7         41        0            7            7          1         0           1       150          0            8         0         71         12

# complaints resulting in some action           DK        0       DK          0            7            2          0         0           1       140          0            2         0         DK         12

Medicare $ recouped                             DK        0 17,269 *          0    4,927   *      787   *          0         0          DK         DK         0            0         0         DK   51,272 *

Other $ recouped                            8,626         0     2,466         0       382         3,723            0         0          DK         DK         0           86         0         DK         0

Total $ recouped                            8,626         0    19,735         0      5,309        4,510            0         0          DK         DK         0           86         0         DK    51,272
Please note the following:

-- The new Senior Medicare Patrol Projects in AZ, OR, and VA are also HIPAA-funded Project grantees. 


Please note these distinctions:

5. Baylor University, TX              6. The National Hispanic Council on Aging, TX
*Pending documentation of actual recoupments
